,)?,1,

3:fn 115be Supreme Court of the Vittittb Stateti
ROSIE DIGGLES, PETITIONER
Supreme CtAil
FILED

Y.

SEP 2 4 2020

UNITED STATES OF AMERICA

OFFICE OF THE CLERK

MOTION FOR LEAVE TO PROCEED IN .FORMA PAUPERIS
COMES NOW, Petitioner Rosie Diggles, and respectfully requests leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed in
forma pauperis. Petitioner represents, through undersigned counsel, represents that she
has previously been granted leave to proceed in forma pauperis in the United States
Court of Appeals for the Fifth Circuit and the United States District Court for the Eastern
District of Texas under the Criminal Justice Act of 1964, 18 U.S.C. ยง 3006(A).
Undersigned counsel represented Petitioner before the Fifth Circuit.
RESPECTFULLY SUBM111ED,
ow"

Don Bailey
Attorney for Petitioner
309 N. Willow
Sherman, Texas 75090
(903) 892-9185

